NO. 19-968
IN THE

Supreme Court of the United States
CHIKE UZUEGBUNAM AND JOSEPH BRADFORD,
Petitioners,
v.
STANLEY C. PRECZEWSKI, ET AL.,
Respondents.
On Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit
JOINT APPENDIX
KRISTEN K. WAGGONER
Counsel of Record
JOHN J. BURSCH
ALLIANCE DEFENDING FREEDOM
440 First Street, N.W.
Suite 600
Washington, D.C. 20001
(202) 393-8690
kwaggoner@adflegal.org

CHRISTOPHER M. CARR
ANDREW A. PINSON
Counsel of Record
OFFICE OF THE GEORGIA
ATTORNEY GENERAL
40 Capitol Square, SW
Atlanta, GA 30334
(404) 651-9453
apinson@law.ga.gov

Counsel for Petitioners

Counsel for Respondents

Petition for Writ of Certiorari filed January 31, 2020
Petition for Writ of Certiorari granted July 9, 2020

i
TABLE OF CONTENTS
Excerpts from U.S. Court of Appeals for the
Eleventh Circuit Docket
Case No. 18-12676...................................................... 1
Affidavit of Aileen Dowell, filed March 31, 2017 ...... 9
Excerpts from United States’ Statement of
Interest, filed September 26, 2017 .......................... 23
Excerpts from Plaintiffs’ Response in Opposition
to Defendants’ Supplemental Brief in Support of
their Motion to Dismiss for Mootness, filed May
1, 2018 ...................................................................... 28
Excerpts from Brief of Plaintiffs-Appellants,
filed August 6, 2018 ................................................. 35
Excerpts from Petition for Initial Hearing En
Banc, filed September 19, 2018 ............................... 40
Excerpts from Petition for Rehearing En Banc,
filed July 22, 2019 .................................................... 46

1
Docket Entry Excerpts
United States Court of Appeals for the
Eleventh Circuit
No. 18-12676
*****
Date Filed Docket Text
06/25/2018

CIVIL APPEAL DOCKETED. Notice
of appeal filed by Appellants Joseph
Bradford and Chike Uzuegbunam on
06/25/2018. Fee Status: Fee Paid. No
hearings to be transcribed. The
appellant’s brief is due on or before
08/06/2018. The appendix is due no
later than 7 days from the filing of
the appellant’s brief. Awaiting
Appellant’s Certificate of Interested
Persons due on or before 07/09/2018
as to Appellant Chike Uzuegbunam.
Awaiting Appellee’s Certificate of
Interested Persons due on or before
07/23/2018 as to Appellee Stanley C.
Preczewski [Entered: 06/27/2018
10:15 AM]
*****

08/06/2018

Appellant’s brief filed by Joseph
Bradford and Chike Uzuegbunam.
(ECF: Travis Barham) [Entered:
08/06/2018 03:19 PM]
*****

08/06/2018

Appendix filed [4 VOLUMES] by
Appellants Joseph Bradford and

2
Date Filed Docket Text
Chike Uzuegbunam. (ECF: Travis
Barham) [Entered: 08/06/2018 04:18
PM]
*****
08/08/2018

Received paper copies of EBrief filed
by Appellants Joseph Bradford and
Chike Uzuegbunam. [Entered:
08/09/2018 02:45 PM]

08/08/2018

Received paper copies of EAppendix
filed by Appellants Joseph Bradford
and Chike Uzuegbunam. 4
VOLUMES - 2 COPIES [Entered:
08/09/2018 02:46 PM]

08/13/2018

Amicus Brief as of right or by
consent of the parties filed by
Samuel S. Woodhouse for
Foundation for Individual Rights in
Education. (ECF: Samuel
Woodhouse) [Entered: 08/13/2018
02:06 PM]

08/14/2018

Received paper copies of EBrief filed
by Amicus Curiae Foundation for
Individual Rights in Education.
[Entered: 08/14/2018 02:28 PM]
*****

09/19/2018

Appellee’s Brief filed by Appellees
Aileen C. Dowell, Catherine Jannick
Downey, Jim B. Fatzinger, Corey
Hughes, Tomas Jiminez, Rebecca A.
Lawler, Shenna Perry, Stanley C.

3
Date Filed Docket Text
Preczewski, Lois C. Richardson,
Gene Ruffin and Terrance Schneider.
[18-12676] (ECF: Angela Cusimano)
[Entered: 09/19/2018 02:05 PM]
09/19/2018

MOTION for initial hearing en banc
filed by Joseph Bradford and Chike
Uzuegbunam. Opposition to Motion
is Unknown. [8567539-1] [18-12676]
(ECF: Travis Barham) [Entered:
09/19/2018 04:01 PM]
*****

09/21/2018

Received paper copies of EBrief filed
by Appellees Aileen C. Dowell,
Catherine Jannick Downey, Jim B.
Fatzinger, Corey Hughes, Tomas
Jiminez, Rebecca A. Lawler, Shenna
Perry, Stanley C. Preczewski, Lois C.
Richardson, Gene Ruffin and
Terrance Schneider. [Entered:
09/24/2018 03:01 PM]
*****

10/17/2018

Reply Brief filed by Appellants
Joseph Bradford and Chike
Uzuegbunam. [18-12676] (ECF:
Travis Barham) [Entered:
10/17/2018 02:47 PM]

10/18/2018

Received paper copies of EBrief filed
by Appellants Joseph Bradford and
Chike Uzuegbunam. [Entered:
10/25/2018 10:48 AM]

4
Date Filed Docket Text
*****
10/26/2018

Amicus Brief filed by Amicus Curiae
Child Evangelism Fellowship.
Service date: 09/27/2018 email Attorney for Amicus Curium: Bush,
McAlister, Woodhouse; Attorney for
Appellants: Barham, Cortman,
Langhofer, Waggoner; Attorney for
Appellee: Cusimano; US mail Attorney for Appellant: Mattox.
[Entered: 10/29/2018 11:54 AM]

10/26/2018

Amicus Brief filed by Amicus Curiae
Foundation for Individual Rights in
Education. Service date: 09/19/2018
email - Attorney for Amicus Curium:
Bush, McAlister, Woodhouse;
Attorney for Appellants: Barham,
Cortman, Langhofer, Waggoner;
Attorney for Appellee: Cusimano; US
mail - Attorney for Appellant:
Mattox. [Entered: 10/29/2018 01:01
PM]

11/05/2018

Received paper copies of EBrief filed
by Amicus Curiae Child Evangelism
Fellowship. [Entered: 11/05/2018
11:44 AM]

02/21/2019

ORDER: Motion for initial hearing
en banc filed by Appellants Chike
Uzuegbunam and Joseph Bradford is
DENIED. [8567539-2] RSR [Entered:
02/21/2019 11:39 AM]

5
Date Filed Docket Text
03/25/2019

The Court has determined that oral
argument will be necessary in this
case. Please forward 3 additional
copies of the 4 volumes of Appendix,
which conform to all formatting
requirements, filed 8/6/18 by
Attorney Travis Christopher Barham
for Appellants Chike Uzuegbunam
and Joseph Bradford to the Clerk’s
Office, Attention: Jenifer Tubbs.
Your prompt attention to this matter
is appreciated. [Entered: 03/25/2019
01:54 PM]

03/25/2019

Calendar issued as to cases to be
orally argued the week of 05/13/2019
in Atlanta, Georgia. Counsel are
directed to electronically
acknowledge receipt of this calendar
by docketing the Calendar Receipt
Acknowledged event in ECF.
Counsel must be logged into
CM/ECF in order to view the
attached calendar. [Entered:
03/25/2019 02:17 PM]

03/25/2019

Attorney Travis Christopher Barham
for Appellants Joseph Bradford and
Chike Uzuegbunam hereby
acknowledges receipt of a copy of the
printed calendar for 05/14/2019.
Travis C. Barham, 770-339-0774 will
present argument. [18-12676] (ECF:

6
Date Filed Docket Text
Travis Barham) [Entered:
03/25/2019 02:52 PM]
03/25/2019

Oral argument scheduled. Argument
Date: Tuesday, 05/14/2019 Argument
Location: Atlanta Courtroom:
Atlanta 339. [Entered: 03/25/2019
03:09 PM]

03/27/2019

Attorney Angela Ellen Cusimano for
Appellees Aileen C. Dowell,
Catherine Jannick Downey, Jim B.
Fatzinger, Corey Hughes, Tomas
Jiminez, Rebecca A. Lawler, Shenna
Perry, Stanley C. Preczewski, Lois C.
Richardson, Gene Ruffin and
Terrance Schneider hereby
acknowledges receipt of a copy of the
printed calendar for 05/14/2019.
Ellen Cusimano 404 656 3370 will
present argument. [18-12676] (ECF:
Angela Cusimano) [Entered:
03/27/2019 11:51 AM]

04/03/2019

Additional (3) copies of Appendix
received from David Andrew
Cortman for Chike Uzuegbunam and
Joseph Bradford and Kristen K.
Waggoner for Chike Uzuegbunam
and Joseph Bradford and forwarded
to the record room. [Entered:
04/03/2019 02:28 PM]

05/14/2019

Oral argument held. Oral Argument
participants were Travis Christopher

7
Date Filed Docket Text
Barham for Appellants Chike
Uzuegbunam and Joseph Bradford
and Angela Ellen Cusimano for
Appellees Stanley C. Preczewski,
Lois C. Richardson, Jim B.
Fatzinger, Tomas Jiminez, Aileen C.
Dowell, Gene Ruffin, Catherine
Jannick Downey, Terrance
Schneider, Corey Hughes, Rebecca
A. Lawler and Shenna Perry.
[Entered: 05/14/2019 11:57 AM]
07/01/2019

Judgment entered as to Appellants
Joseph Bradford and Chike
Uzuegbunam. [Entered: 07/01/2019
12:44 PM]

07/01/2019

Opinion issued by court as to
Appellants Joseph Bradford and
Chike Uzuegbunam. Decision:
Affirmed. Opinion type: NonPublished. Opinion method: Per
Curiam. The opinion is also available
through the Court’s Opinions page at
this link http://www.ca11.uscourts.
gov/opinions. [Entered: 07/01/2019
12:47 PM]

07/22/2019

Petition for rehearing en banc (with
panel rehearing) filed by Appellants
Joseph Bradford and Chike
Uzuegbunam. [18-12676] (ECF:
Travis Barham) [Entered:
07/22/2019 11:45 AM

8
Date Filed Docket Text
*****
09/04/2019

ORDER: The Petition(s) for
Rehearing are DENIED and no
Judge in regular active service on
the Court having requested that the
Court be polled, the Petition(s) for
Rehearing En Banc filed by
Appellants Chike Uzuegbunam and
Joseph Bradford are DENIED.
[8869536-1] [Entered: 09/04/2019
10:16 AM]

09/12/2019

Mandate issued as to Appellants
Joseph Bradford and Chike
Uzuegbunam. [Entered: 09/12/2019
10:11 AM]

10/28/2019

Extension for filing certiorari
GRANTED by U.S. Supreme Court
as to Appellants Joseph Bradford
and Chike Uzuegbunam. [Entered:
11/14/2019 09:54 AM]

02/03/2020

Notice of Writ of Certiorari filed as
to Appellant Chike Uzuegbunam.
SC# 19-968. [Entered: 02/06/2020
12:02 PM]
*****

07/09/2020

Writ of Certiorari filed as to
Appellant Chike Uzuegbunam is
GRANTED. SC# 19-968. [Entered:
07/13/2020 08:38 AM]

9
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA
ATLANTA DIVISION
CHIKE
UZUEGBUNAM and
JOSEPH BRADFORD,
Plaintiffs,
v.
STANLEY C.
PRECZEWSKI, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)

Civil Action No.:
1:16-cv-04658-ELR

AFFIDAVIT OF AILEEN DOWELL
Personally appeared before me, an officer duly
authorized to administer oaths, the undersigned,
AILEEN DOWELL, who, upon being duly sworn,
testifies as follows:
1.
I, Aileen Dowell, am of legal age, and under no
legal disability. I authorize the use of this Affidavit
for any and all purposes allowed by Georgia law. The
statements set forth in this Affidavit are based upon
my personal knowledge and I state that they are true
and correct. I am competent to testify to the matters
stated herein.
2.
I am the Director of Student Integrity at Georgia
Gwinnett College (“GGC”).

10
3.
As the Director of Student Integrity, I am
responsible for implementing programmatic and
policy changes, supervising the Office of Student
Integrity staff, and adjudicating all disciplinary and
non-disciplinary infractions for GGC, including
academic integrity violations, disorderly conduct, etc.
4.
On February 28, 2017, the GGC Cabinet approved
revisions to GGC’s Freedom of Expression Policy, as
well as revisions to the Student Code of Conduct
Section in the GGC Student Handbook for 2016-2017.
5.
A copy of the revised Freedom of Expression Policy
is attached hereto as Attachment A.
6.
Relevant portions of the revised Student Code of
Conduct are attached hereto as Attachment B.
7.
The Freedom of Expression Policy was revised to
allow students to speak anywhere on campus and at
any time without having to first obtain a permit.
(Attach. A).
8.
Under the new policy, the only time students must
obtain a permit is when they plan to engage in
expressive activity on campus in a group that is
expected to consist of 30 or more persons. (Id.).

11
9.
Under the new policy, GGC has designated two
areas on campus as “public forum areas. However,
while students may utilize the public forum areas,
they are not required to do so under the new policy
and can, instead, speak anywhere on campus. (Id.).
10.
The revised Freedom of Expression Policy is
available to the public and has been published on
GGC’s website at http://www.ggc.edu/about-ggc/at-aglance/freedom-of-expression/.
11.
As for GGC’s Student Code of Conduct Policy, it
has been revised so that “behavior which disturbs the
peace and/or comfort of person(s)” is no longer listed
as an example of prohibited disorderly conduct.
(Attach. B).
12.
The revised Student Code of Conduct Policy is
available to the public and has been published on
GGC’s website at http://www.ggc.edu/student-life/getinvolved-on-campus/student-affairs/docs/currentstudent-handbook.pdf#page=23.
13.
Both of the revised policies supersede their
predecessors and have been in full force and effect
since February 28, 2017.
14.
GGC has no intention of returning to or enforcing
the former policies.

12

ATTACHMENT A
Georgia
Gwinnett
Expression Policy

College

Freedom

of

A. Purpose and Overview of Policy
Georgia Gwinnett College (“GGC”) is committed to
respecting the First Amendment rights of all
individuals, including freedom of speech, freedom of
expression, and the right to peaceably assemble. GGC
also recognizes its responsibility to provide a secure
learning environment that allows individuals
enrolled at or employed by GGC (“members of the
GGC community”) to express their views in ways that
do not disrupt the operation of the College. This policy
in no way prohibits members of the GGC community
from engaging in conversations on campus and does
not apply to College-sponsored activities or classroom
instruction or participation, but rather only
establishes as designated public forums certain

13
outdoor areas of GGC’s campus and sets forth
requirements for forum reservations in the following
limited circumstances: (1) members of the GGC
community who plan an event with 30 or more
persons; and, (2) individuals or groups who are not
members of the GGC community who wish to speak
on GGC’s campus. By placing reasonable limitations
on time, place, and manner of speech, GGC does not
take a position on the content or viewpoint of the
expression, but allows for a diversity of viewpoints to
be expressed in an academic setting.
B. Designation of Public Forums on GGC’s
Campus
To accommodate the need for immediate and
spontaneous demonstration and to better facilitate
the free exchange of ideas, GGC has designated
ZONE A and ZONE B as public forums on GGC’s
campus (“Public Forum Areas”), which are depicted
on the enclosed map. These Public Forum Areas are
generally available from 9:00 a.m. to 7:30 p.m.
Monday through Friday, provided that the Public
Forum Areas have not previously been reserved.
Reservations will only be processed on days that
GGC’s Administrative Offices are open for business
(“college business days”). Though reservations to use
the Public Forum Areas are only required as set forth
in Section C and Section D below, GGC recommends
that all parties interested in utilizing the Public
Forum Areas submit a completed Forum Reservation
Request Form to GGC’s Office of Student Integrity in
the Division of Academic and Student Affairs prior to
use so that GGC may minimize scheduling conflicts,
accommodate all interested users, and provide
adequate security for the speaker and the audience.

14
C. Provisions
Community

for

Members

of

the

GGC

I. Planned Large Group Expression
Members of the GGC community who plan to engage
in expressive activity on campus in a group that is
expected to consist of 30 or more persons must submit
a completed Forum Reservation Request Form to
GGC’s Office of Student Integrity in the Division of
Academic and Student Affairs two college business
days prior to the scheduled activity and must receive
approval in writing from a Student Affairs official
prior to engaging in such activity. Prior notice is
required to ensure that there is sufficient space for
the large group event, that necessary College
resources are available for crowd control and security,
and that the academic and other operations of the
College are not disrupted. The Student Affairs official
may grant a reservation for one of the Public Forum
Areas or another available area of campus, as
requested by the applicant, and may only deny a
reservation for the limited reasons set forth in Section
E below. The reservation request must be processed
and the requesting party must be notified within one
college business day after its submission. Any denial
may be appealed to GGC’s Senior Vice President for
Academic and Student Affairs and Provost in writing
setting forth the reasons why the appeal should be
granted. GGC’s Senior Vice President for Academic
and Student Affairs and Provost or his or her designee
must respond to the appeal in writing within one
college business day.

15
II. Spontaneous Large Group Expression
If an individual or small group of individuals within
the GGC community, while engaging in spontaneous
expression, attracts a group of 30 or more persons,
then a representative from the group should provide
the College with as much notice as circumstances
reasonably permit. GGC reserves the right to direct a
group of 30 or more persons to one of the Public Forum
Areas or another available area of campus in order to
ensure the safety of campus members, to provide for
proper crowd control, and to limit disruption of the
academic and other operations of the College. The
GGC official must not consider or impose restrictions
based on the content or viewpoint of the expression
when relocating any expression.
D. Provisions for Non-Campus Members
Individuals or groups of people who are not enrolled
at or employed by GGC may only engage in expressive
activity on GGC’s campus in the Public Forum Areas
and only after submitting a completed Forum
Reservation Request Form to GGC’s Office of Student
Integrity in the Division of Academic and Student
Affairs at least two college business days prior to the
scheduled speech and obtaining approval for such use
in writing from a Student Affairs official pursuant to
the procedures set forth in Section E below.
Organizers are encouraged to submit their requests
as early in the planning stages of the event as
possible. The reservation request must be processed
and the requesting party must be notified within one
college business day after its submission. Any denial
may be appealed to GGC’s Senior Vice President for
Academic and Student Affairs and Provost in writing

16
setting forth the reasons why the appeal should be
granted. GGC’s Senior Vice President for Academic
and Student Affairs and Provost or his or her designee
must respond to the appeal in writing within one
college business day. This provision does not apply to
GGC Classroom Visitors, who are covered by APM
3.1.5, or to any College-sponsored events.
E. Procedures for Forum Reservation Requests
Completed Forum Reservation Request Forms should
be submitted to GGC’s Office of Student Integrity in
the Division of Academic and Student Affairs in
person or by email to forumreservationrequests@
ggc.edu. Any written materials that will be
distributed in connection with the expression must be
attached to the Forum Reservation Request Form and
submitted to GGC’s Office of Student Integrity in the
Division of Academic and Student Affairs at least two
college business days prior to the distribution of the
written materials. College officials may not deny any
request to distribute written materials based on the
content or viewpoint of the expression. However, no
publicity for a speaker or program may be released
prior to authorization of the Reservation Request
Form.
Reservation scheduling will be coordinated by a
Student Affairs official, who will schedule forums for
expression on a first-come, first-served basis. The
Student Affairs official must respond to all requests
in writing as soon as practicable, but in no event more
than one college business day following receipt of the
request, either authorizing the reservation and noting
any special instructions, if applicable, or setting forth
the reason for denial of the reservation.

17
The Student Affairs official may only deny a
reservation request for one of the following reasons:
(1) The Forum Reservation Request Form is not
fully completed;
(2) The Forum Reservation Request Form
contains a material falsehood or misrepresentation;
(3) The Public Forum Areas have been reserved
by persons who previously submitted a completed
Forum Reservation Request Form(s), in which
case the College must provide a reservation for
the applicant at an alternate location, alternate
date, or alternate time;
(4) The use or activity intended by the applicant
would conflict with or disturb previously planned
programs organized and conducted by the
College;
(5) The Public Forum Areas are not large enough
to accommodate the expected or actual number of
persons engaging in large group expression, in
which case the College must provide a reservation
for the applicant at an alternate location that can
safely accommodate the applicant provided that
the applicant is a member of the GGC community
and that such a location exists on GGC’s campus;
(6) The use or activity intended by the applicant
would present a danger to the health or safety of
the applicant, other members of the GGC
community, or the public; or
(7) The use or activity intended by the applicant
is prohibited by law or GGC policy.

18
When assessing a reservation request, the Student
Affairs official must not consider or impose
restrictions based on the content or viewpoint of the
expression.
Appeals related to the decision of the Student Affairs
official should be made in writing to GGC’s Senior
Vice President for Academic and Student Affairs and
Provost. GGC’s Senior Vice President for Academic
and Student Affairs and Provost or his or her designee
must decide all appeals within one college business
day. The decision of GGC’s Senior Vice President for
Academic and Student Affairs and Provost or his or
her designee is final. All campus reservations are
subject to the general provisions in Section G. below.
F. Distribution of Written Material
Members of the GGC community may distribute noncommercial pamphlets, handbills, circulars, newspapers, magazines, and other written materials on a
person-to-person basis in open outdoor areas of the
campus. An individual who is not a member of the
GGC community may only distribute written
materials within the Public Forum Areas and only
during the time in which the individual has reserved
Public Forum Area. Unauthorized use of the College’s
trademark on any written material is strictly
prohibited. The Campus Solicitation Policy, which
may be found at APM 7.61, covers the distribution of
commercial materials and publications.
G. General Provisions
In addition to the requirements set forth above, all
individuals expressing themselves on GGC’s campus
must comply with the following provisions:

19
x

No interference with the free flow of vehicular
or pedestrian traffic within and/or under the
control of the GGC campus or the ingress and
egress to buildings on campus is permitted.

x

Any use of amplified sound, other than
amplified sound used in connection with
College sponsored events, must only be
intended to be heard in the immediate area of
the expression in order to minimize any
disruption of the central academic mission of
the College. Use of amplified sound by student
organizations is covered by the Outside
Amplified Sound Provision of the Registered
Student Organization Policy and Procedures
Manual.

x

No interruption of the orderly conduct of
college classes or other college activities,
including college ceremonies and events, is
permitted.

x

No commercial solicitations, campus sales, or
fundraising activities shall be undertaken
which are not authorized by GGC. For GGC’s
policies on solicitation and fundraising, refer to
APM 7.61 and APM 8.2.54.

x

The individual who makes the reservation
shall be responsible for seeing that the area is
left clean and in good repair. If not
accomplished, persons, or organizations
responsible for the event may be held
financially responsible for cleanup costs.

20
x

The individual/organization using the area
must supply their own tables, chairs, etc., if
needed (unless already part of the location).

x

Individuals who are not members of the GGC
campus community may not camp or erect
temporary structures (e.g. tents) on GGC’s
campus.

x

Damage or destruction of property owned or
operated by the College, or property belonging
to students, faculty, staff, or guests of the
College is prohibited. Persons or organizations
causing such damage may be held financially
and/or criminally responsible.

x

Individuals and groups of individuals
expressing themselves on GGC’s campus must
comply with all applicable federal, state, and
local laws and GGC policies, rules, and
regulations

Authorization of a speech, event, or demonstration is
contingent upon compliance with the criteria listed
above. Speakers and/or organizations failing to
comply with the above policy may be asked to leave, a
trespass warning may be issued, and/or College
disciplinary action or judicial action may be pursued.
Freedom of Expression Policy Questions
Questions about this policy may be addressed to the
Office of Student Integrity in the Division of Academic
and Student Affairs at 678.407.5882 or forum
reservationrequests@ggc.edu.

21
ATTACHMENT B
GGC Student Handbook 2016-2017 – Excerpt
from Student Code of Conduct
Amending GGC 4.6.5 (3)
(3) Disorderly Conduct. Examples of specific
prohibited actions include but are not limited to the
following:
A. Behavior which disrupts or obstructs the orderly
functioning of the College, including but not
limited to teaching, research, administration
and/or service or other College activities on or off
campus including but not limited to study abroad
experiences or other authorized non-College
activities taking place on College property.
B. Engaging in conduct that disrupts the academic
pursuits or infringes upon the rights or privacy of
another person.
C. Physical abuse, battery, fighting, and/or other
physical contact that threatens or endangers the
health or safety of another person or puts another
in reasonable apprehension or fear for his or her
safety or other conduct used to coerce club/
organization membership.
D. Verbal abuse, threats, intimidation, harassment, coercion, bullying/cyber bullying, and/or
other conduct that (i) threatens or endangers the
health or safety of another person; (ii) puts another
in reasonable apprehension or fear for his or her
safety; (iii) is so severe or pervasive that it deprives
an individual the benefits of any GGC education

22
program or activity; or (iv) that is used to coerce
club/organization membership.
E. Violation of Board of Regents Policy or College
policy, rules, and regulations.
F. Conduct or behavior that is obscene, including
but not limited to public exposure of one’s own
sexual organs and voyeurism, including but not
limited to video voyeurism.
G. Failure to comply with directions of College
officials or law enforcement officers acting in performance of their duties and/or failure to identify
oneself to these persons when requested to do so.
H. Intentional obstruction, which unreasonably
interferes with freedom of movement (pedestrian
or vehicular) on campus.
I. Entering an athletic contest, dance, social or
other College event without the proper credentials
for admission (e.g., ticket, identification,
invitation).
J. Circulating any advertising media without
approval from proper College officials or in a
manner that violates or is contrary to policies of
Georgia Gwinnett College and state or local law.
K. Unauthorized recordings (audio/visual/other
related devices) without permission of the
applicable GGC official.
In recognition and support of the First Amendment of
the United States Constitution, freedom of expression
and academic freedom shall be considered in
investigating and reviewing these types of alleged
conduct violations.

23
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA
ATLANTA DIVISION
CHIKE UZUEGBUNAM
and JOSEPH
BRADFORD,
Plaintiffs,
v.
STANLEY C.
PRECZEWSKI, et al.,
Defendants.

)
)
)
) Civil Action No.
) 1:16-cv-04658-ELR
)
)
)
)
)

UNITED STATES’ STATEMENT OF INTEREST
*****
The United States respectfully submits this
Statement of Interest pursuant to 28 U.S.C. § 517,
which authorizes the Attorney General “to attend to
the interests of the United States in a suit pending in
a court of the United States.” In the view of the United
States, and for the reasons explained below, Plaintiffs
have properly pleaded claims under the First and
Fourteenth Amendments—namely, that the speech
regulations imposed by Georgia Gwinnett College
(“GGC” or “the College”) violated Plaintiffs’
constitutional rights.

24
INTEREST OF THE UNITED STATES
The United States has an interest in protecting
the individual rights guaranteed by the First
Amendment. The right to free speech lies at the heart
of a free society and is the “effectual guardian of every
other right.” Virginia Resolutions (Dec. 21, 1798), in 5
THE FOUNDERS’ CONSTITUTION, 135, 136 (Philip B.
Kurland & Ralph Lerner, eds., 1987). Content-based
restrictions on speech in public fora require “the most
exacting scrutiny,” Widmar v. Vincent, 454 U.S. 263,
277 (1981), and state-run colleges and universities
are no exception from this rule, id. at 267–68.
The United States has a significant interest in the
vigilant protection of constitutional freedoms in
institutions of higher learning. Congress has declared
that “an institution of higher education should
facilitate the free and open exchange of ideas.” 20
U.S.C. § 1011(a)(2). In recent years, however,
concerns have been raised
*****
The United States does not advance any position
as to whether the Plaintiffs’ claims are moot or
whether qualified immunity applies to the individual
claims. Taking the facts alleged as true, the United
States is satisfied, for the reasons below, that
Plaintiffs have stated claims for violations of the First
and Fourteenth Amendments.
ARGUMENT
The free speech protections of the First
Amendment are as applicable to private religious
speech as they are to secular speech, Capitol Square
Review & Advisory Bd. v. Pinette, 515 U.S. 753, 760

25
(1995), and are as applicable to state-run universities
as they are to any other government institution,
Healy v. James, 408 U.S. 169, 180 (1972). Plaintiffs’
allegations, if proven, demonstrate that GGC’s speech
policies and practices were not content-neutral,
enshrined an impermissible heckler’s veto, and did
not satisfy strict scrutiny. Plaintiffs therefore have
stated a claim under the First Amendment. Plaintiffs
also have stated a claim under the Fourteenth
Amendment because the College’s content-based
policies and practices discriminate against Plaintiffs’
religious message. See Cleburne, Tex. v. Cleburne
Living Ctr., 473 U.S. 432, 440 (1985).1
I. PLAINTIFFS’ COMPLAINT ADEQUATELY
PLEADS
FIRST
AND
FOURTEENTH
AMENDMENT CLAIMS AGAINST GGC’S
CONTENT-BASED SPEECH PRACTICES
Under the First Amendment, the power of the
government to regulate speech on college and
university campuses is contingent on the character of
the forum in question. Perry Educ. Ass’n v. Perry
Local Educators’ Ass’n, 460 U.S. 37, 44 (1983) (“[t]he
existence of a right of access to public property and
the standard by which limitations upon such right
must be evaluated differ depending on the character
of the property at issue”); United States v. Frandsen,
212 F.3d 1231, 1237 (11th Cir. 2000) (“an initial step
in
analyzing
whether
the
regulation
is
unconstitutional is determining the nature of the
1

The United States also notes that Plaintiffs have challenged
the Speech Zone Policy’s authorization requirement as an
unconstitutional prior restraint. Doc. 13 ¶¶ 379–83; Forsyth
Cty., 505 U.S. 123 at 133–34.

26
government property involved”). A “public forum” is
“public property which the state has opened for use by
the public as a place for expressive activity,” either by
tradition or designation. Perry Educ. Ass’n, 460 U.S.
at 45. In a “public forum,” the government may
impose “[r]easonable time, place, and manner
restrictions . . . but any restriction based on the
content of the speech
*****
protest against affirmative action; a pro-life student
may feel emotional distress when a pro-choice student
distributes Planned Parenthood pamphlets on
campus.” Id. at 251. The university’s policy was “not
based on the speech at all” but “on a listener’s reaction
to speech” and therefore violated the First
Amendment. Id. (emphasis added).
GGC’s sole stated justification for shutting down
Mr. Uzuegbunam’s religious expression in the Speech
Zone fails for precisely the same reason: it rests on “a
listener’s reaction to speech,” not the speech itself. Id.
According to the Complaint, GGC’s rationale for its
“fire and brimstone” prohibition was that Mr.
Uzuegbunam’s
religious
message
generated
complaints from other people that he was disturbing
“their peace and tranquility.” Doc. 13 ¶ 289. Indeed,
the campus police officer explained that “the only
reason” he interrupted Mr. Uzuegbunam’s speaking
“was because GGC officials had received calls from
people complaining about his expression.” Id. ¶ 271;
see also id. ¶¶ 268–72, 289–90.
Thus, GGC officials branded Mr. Uzuegbunam’s
speech as “disorderly conduct” under the Student
Code of Conduct because it “disturb[ed] the peace

27
and/or comfort of person(s).” Doc. 13, Ex. 9 at 26; Doc.
13 ¶¶ 289–90. This “mere desire to avoid the
discomfort and unpleasantness” among listeners is
not a compelling government interest, let alone
sufficient to justify the content-based restriction of
Mr. Uzuegbunam’s religious speech.
*****

28
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA
ATLANTA DIVISION
CHIKE UZUEGBUNAM,
et al.,

Case No. 1:16-cv04658-ELR

Plaintiffs,
v.
STANLEY C.
PRECZEWSKI, et al.,

THE HONORABLE
ELEANOR L. ROSS

Defendants.

PLAINTIFFS’ RESPONSE IN OPPOSITION TO
DEFENDANTS’ SUPPLEMENTAL BRIEF IN
SUPPORT OF THEIR MOTION TO DISMISS
FOR MOOTNESS
*****
motivated policy changes do not moot Mr. Bradford’s
injunctive claims, including how they perpetuate the
Speech Zone Policy’s most glaring constitutional
flaws. See Pls.’ Resp. in Opp’n to Defs.’ Mot. to
Dismiss for Mootness (“Pls.’ Mootness Resp.”) at 3–25,
Apr. 24, 2017, ECF No. 27.
In short, Mr. Bradford’s injunctive claims remain
live. Mr. Uzuegbunam’s graduation has no practical
effect on this case.
II. Plaintiffs pleaded claims for monetary
damages (not just nominal damages) that are
not moot, particularly on a motion to dismiss.

29
Defendants’ damages argument rests on one case.
Flanigan’s Enters., Inc. of Ga. v. City of Sandy
Springs, 868 F.3d 1248 (11th Cir. 2017). But that
decision does not control here as (1) Plaintiffs pleaded
claims for actual damages and (2) Defendants
oversimplified its holding. Regardless of its
application, Plaintiffs would have the chance to
amend the Complaint to clarify the relief sought. So
once again, Defendants’ latest brief changes nothing
about this case.
First, Flanigan’s Enterprises involved plaintiffs
who “did not request actual or compensatory
damages.” Id. at 1263 n.11. It recognized that a “claim
for actual damages maintains the live controversy.”
Id. at 1270 n.23. It only governs when plaintiffs seek
solely nominal damages. Id. That situation is not
before this Court as Plaintiffs pleaded compensatory
damages claims.
Plaintiffs repeatedly pleaded that they “are
entitled to an award of monetary damages,” Compl.
¶¶ 417, 434, 450, 469, and to “damages in an amount
to be determined by the evidence and this Court.” Id.
¶¶ 418, 435, 451, 470. “Monetary damages” does not
refer exclusively to the nominal variety. See, e.g.,
Quinlan v. Pers. Transp. Servs. Co., 329 F. App’x 246,
249 (11th Cir. 2009) (using “monetary damages” to
refer to compensatory and punitive damages); Sheely
v. MRI Radiology Network, P.A., 505 F.3d 1173, 1198
(11th Cir. 2007) (same). And as nominal damages
serve a symbolic function, Flanigan’s Enters., 868
F.3d at 1268, their amount is not determined by the
evidence presented in court. Hence, Plaintiffs stated
claims not just for nominal damages, but also for
actual, compensatory damages—particularly when

30
this Court construes the Complaint “broadly,” Watts
v. Fla. Int’l Univ., 495 F.3d 1289, 1295 (11th Cir.
2007), and “in the light most favorable to
[P]laintiff[s].” Id.; Chaparro v. Carnival Corp., 693
F.3d 1333, 1335 (11th Cir. 2012); see also Gates v.
Khokar, 884 F.3d 1290, 1296 (11th Cir. 2018) (noting
courts must “draw[] all reasonable inferences in the
plaintiff’s favor” on a motion to dismiss). Thus,
Flanigan’s Enterprises does not control, and these
claims remain live.
Defendants ignore these paragraphs and focus
solely on the prayer for relief. See Defs.’ Mootness
Suppl. at 5 (citing Compl. at 79). But the prayer does
not limit the types of relief Plaintiffs seek. FED. R. CIV.
P. 54(c) notes that courts must “grant the relief to
which each party is entitled, even if the party has not
demanded that relief in its pleadings.” Here, in
addition to Plaintiffs having pleaded such relief for
compensatory damages, federal courts “should not
dismiss a meritorious constitutional claim because
the complaint seeks one remedy rather than another
plainly appropriate one.” Holt Civic Club v. City of
Tuscaloosa, 439 U.S. 60, 65 (1978). The prayer for
relief can provide insight on the types of claims being
brought, but “its omissions are not in and of themselves a barrier to redress of a meritorious claim.” Id.
at 66.
Where allegations are placed in the complaint does
not matter as courts must “read the complaint as a
whole.” Aldana v. Del Monte Fresh Produce, N.A.,
Inc., 416 F.3d 1242, 1252 n.11 (11th Cir. 2005). For
example, a district court dismissed a case, saying the
plaintiff “failed to specify his damages” because the
prayer for relief just cited a statute and sought “any

31
and all other relief that the Court deems just and
appropriate.” Levine v. World Fin. Network Nat’l
Bank, 437 F.3d 1118, 1123 (11th Cir. 2006). The
Eleventh Circuit reversed because each count
requested various remedies. Id. Under notice
pleading, this stated claims for “for all of the available
damages.” Id.1
Here, each count pleaded compensatory damages.
Compl. ¶¶ 417–18, 434–35, 450–51, 469–70. The
prayer for relief also seeks “[a]ll other further relief to
which Plaintiffs may be entitled.” Compl. at 79 ¶ I.
Thus, like the Levine plaintiff, Plaintiffs stated claims
for all available types of damages. Defendants cannot
1

Other federal circuits have similarly ruled that the prayer for
relief does not curtail the available types of relief. See, e.g.,
Dingxi Longhai Dairy, Ltd. v. Becwood Tech. Grp. L.L.C., 635
F.3d 1106, 1108–09 (8th Cir. 2011) (“The sufficiency of a
pleading is tested by the Rule 8(a)(2) statement of the claim for
relief and the demand for judgment is not considered part of the
claim for that purpose, as numerous cases have held. Thus, the
selection of an improper remedy in the Rule 8(a)(3) demand for
relief will not be fatal to a party’s pleading if the statement of
the claim indicates the pleader may be entitled to relief of some
other type.” (quoting WRIGHT & MILLER, 5 FED. PRAC. & PROC.
CIV. § 1255 (3d ed. 2004)); Bontkowski v. Smith, 305 F.3d 757,
762 (7th Cir. 2002) (“[T]he demand is not itself a part of the
plaintiff’s claim . . . and so failure to specify relief to which the
plaintiff was entitled would not warrant dismissal under Rule
12(b)(6) (dismissal for failure to state a claim).” (internal
citations omitted)); Kan. City, St. L. & Chi. R.R. Co. v. Alton R.R.
Co., 124 F.2d 780, 783 (7th Cir. 1941) (“The prayer may be looked
to to help determine the relief to which the appellant is entitled,
but it is not controlling.”); Pension Benefit Guar. Corp. v. E.
Dayton Tool & Die Co., 14 F.3d 1122, 1127 (6th Cir. 1994) (“If a
pleading provides a defendant notice of the plaintiff’s claims and
the grounds for the claims . . . omissions in a prayer for relief do
not bar redress of meritorious claims.”).

32
say they did not receive notice simply because these
statements were in “another section of the complaint.”
Aldana, 416 F.3d at 1252 n.11. Thus, Flanigan’s
Enterprises does not control; these claims remain live.
These claims also survive qualified immunity as
Plaintiffs pleaded facts showing Defendants violated
clearly established rights. Kyle K. v. Chapman, 208
F.3d 940, 942 (11th Cir. 2000) (“Defendants are
entitled to qualified immunity in a Rule 12(b)(6)
motion to dismiss only if the complaint fails to allege
facts that would show a violation of a clearly
established constitutional right.”). Plaintiffs pleaded
facts showing that Defendants enforced policies
against Mr. Uzuegbunam that conferred multiple
levels of unbridled discretion, making them
viewpoint-based. Their Speech Code, used to silence
him, established a heckler’s veto. Their Speech Zone
Policy, used to stop him, imposed an illegal prior
restraint that cannot pass any level of constitutional
scrutiny. These are just a few ways these policies
violate clearly established law. See Pls.’ Resp. in
Opp’n to Defs.’ Mot. to Dismiss Am. Compl. at 8–45,
Apr. 7, 2017, ECF No. 22.
Second, Defendants ignore critical nuances on
nominal damages. The Eleventh Circuit did not
categorically hold that all nominal damages claims
are moot once claims for other relief are moot.
Flanigan’s Enters., 868 F.3d at 1270 n.23 (“Our
holding today . . . does not imply that a case in which
nominal damages are the only available remedy is
always or necessarily moot.”). It reiterated that
“‘[n]ominal damages are appropriate if a plaintiff
establishes
a
violation of
a
fundamental
constitutional right, even if he cannot prove actual

33
injury sufficient to entitle him to compensatory
damages.’” Id. (quoting KH Outdoor, LLC v. City of
Trussville, 465 F.3d 1256, 1260 (11th Cir. 2006)).
“Thus, where an alleged constitutional violation
presents an otherwise live case or controversy, a
district court is not precluded from adjudicating that
dispute” and awarding nominal damages if actual
damages cannot be proven. Id.
Here, a live case or controversy remains, with
fundamental constitutional rights at stake. In 2016,
Defendants silenced Mr. Uzuegbunam, saying he
could only speak in two tiny locations on campus
provided no one complained. For almost two years
(i.e., the rest of his GGC career), his and Mr.
Bradford’s speech was (and remains) chilled. Once
sued, they replaced a policy they knew was flawed (see
Compl. ¶¶ 197–203) with a new one that perpetuated
the same flaws—that still confines student speech to
two (now more vague) zones on campus, grants
unbridled discretion, and requires students to let
officials review in advance any leaflets they want to
distribute. Pls.’ Mootness Resp. at 16–25. Plaintiffs
deserve the opportunity to prove their case. Whether
they ultimately receive compensatory damages,
Flanigan’s Enterprises says they may still receive
nominal damages. Hence, even those claims are not
moot.
Last, any dismissal due to Defendants’
supplement would have to be without prejudice. In
general, “[w]here a more carefully drafted complaint
might state a claim, a plaintiff must be given at least
one chance to amend the complaint before the district
court dismisses the action with prejudice.” Bank v.
Pitt, 928 F.2d 1108, 1112 (11th Cir. 1991), overruled

34
in part by Wagner v. Dae-woo Heavy Indus. Am. Corp.,
314 F.3d 541 (11th Cir. 2002).2 Here, clarifying
*****

2

Per Wagner, Bank does not apply “when the plaintiff, who is
represented by counsel, never filed a motion to amend nor
requested leave to amend before the district court.” Wagner, 314
F.3d at 542. Plaintiffs here request leave to amend if the Court
deems it necessary.

35
No. 18-12676-AA
UNITED STATES COURT OF APPEALS FOR
THE ELEVENTH CIRCUIT
CHIKE UZUEGBUNAM AND JOSEPH
BRADFORD,
Plaintiffs-Appellants
v.
STANLEY C. PRECZEWSKI, LOIS C.
RICHARDSON, JIM B. FATZINGER, TOMAS
JIMINEZ, AILEEN C. DOWELL, GENE RUFFIN,
CATHERINE JANNICK DOWNEY, TERRANCE
SCHNEIDER, COREY HUGHES, REBECCA A.
LAWLER, AND SHENNA PERRY
Defendants-Appellees.
Appeal from the
United States District Court for the Northern
District of Georgia
Case No. 1:16-cv-04658-ELR
The Honorable Eleanor L. Ross
BRIEF OF PLAINTIFFS-APPELLANTS

DAVID A. CORTMAN
TRAVIS C. BARHAM
ALLIANCE DEFENDING
FREEDOM

KRISTEN K. WAGGONER
TYSON C. LANGHOFER
ALLIANCE DEFENDING
FREEDOM

36
1000 Hurricane Shoals
Road N.E.,
Ste. D-1100
Lawrenceville, Georgia
30043
Telephone: (770) 339–
0774
Facsimile: (770) 339–
6744

440 1st Street, NW,
Ste. 600
Washington, D.C.
20001
Telephone: (202) 393–
8690
Facsimile: (202) 347–
3622

Attorneys for Appellants
*****
in the “wrong” place and then because he said the
“wrong” thing in the “right” place. A.A.99-132 (first
motion to dismiss); A.A.440-73 (second motion). At
one point, GGC insisted that the Christian Gospel—a
message the First Amendment has protected for
centuries—“arguably rose to the level of ‘fighting
words.’” A.A.119. Throughout, it defended its officials’
decision to ratify and enforce a heckler’s veto by
silencing Mr. Uzuegbunam due to complaints. If the
Defendants’ conduct were found to be illegal, Mr.
Uzuegbunam could be entitled to compensatory
damages. See supra Argument I.A.
Second, awarding nominal damages here “would
have a practical effect on the parties’ rights or
obligations,” and thus, Plaintiffs’ claims are not moot
and “the exercise of jurisdiction is plainly proper.”
Flanigan’s, 868 F.3d at 1263-64. Explaining the
“practical effect” that would prevent mootness,
Flanigan’s pointed to nominal damages claims for
trespass, where the parties “wish to obtain a legal

37
determination of a disputed boundary,” and for libel,
where the parties seek “to vindicate their reputations
by proving that the supposed libel was a falsehood.”
Id. at 1263 n.12 (quotations & citations omitted).
Plaintiffs’ claims are akin to both.
Again, Plaintiffs sued because GGC officials
repeatedly censored Mr. Uzuegbunam, first because
he was outside the tiny “speech zones” and then
because someone complained. Plaintiffs’ nominal
damages claims would determine the disputed
boundary over how public colleges can restrict
student expression. Can they confine student speech
to small, arbitrary zones on campus? Can they
effectuate a heckler’s veto by silencing complaintinducing speech? Regardless of the current policies,
these are questions that will recur. People will
doubtlessly complain about what others say. So
officials may try to do the same things, relying on
different policies or no policies at all. Thus,
determining the legal boundaries of where students
may speak and what they may say on campus would
have a practical, clarifying effect on all parties—
students and officials. Especially given qualified
immunity’s “clearly established” analysis, determining the boundaries of students’ freedoms and
when officials have trespassed on them is a critical
practical effect.
Moreover, a nominal damages award would
answer an important question: Did GGC officials
violate Mr. Uzuegbunam’s rights when they censored
him twice? GGC officials publicly silenced him
twice—in full view of fellow students. The effect of
this is unmistakable, declaring to all watching that he
had misbehaved. This besmirching of his reputation

38
has continued here, where GGC has claimed he was
uttering “fighting words,” A.A.119, and a “divisive
message,” A.A.119, that “bothered” students and “was
disruptive.” A.A.460. Just as “proving that [a]
supposed libel was a falsehood” constituted a
sufficiently practical effect to ward off mootness,
Flanigan’s, 868 F.3d at 1263 n.12, proving that GGC’s
actions violated Mr. Uzuegbunam’s rights would as
well.
In sum, the district court erred by applying only
portions of Flanigan’s. That decision “does not
foreclose the exercise of jurisdiction in all cases where
a plaintiff claims only nominal damages.” Id. Here, a
nominal damages award would have “practical
effect[s],” declaring Plaintiffs’ rights and Defendants’
obligations. Id. at 1263. Flanigan’s does not moot
Plaintiffs’ nominal damages claims, and the district
court erred in holding otherwise.
II. Flanigan’s was wrongly decided and should
be overruled.
In declaring Plaintiffs’ nominal damages claims
moot, the district court relied exclusively on
Flanigan’s, A.A.720-24—a decision that conflicts with
long-established precedent from the Supreme Court
and almost every other circuit and lacks any legal
grounding. It should be reversed and Flanigan’s
overturned.
A. Flanigan’s conflicts with Supreme Court
precedent.
Flanigan’s focuses on what the Supreme Court
allegedly did not say and ignores what it has said.
Flanigan’s, 868 F.3d at 1266 (“[N]othing that it held,

39
or even said, controls….”); id. at 1267 (“In the absence
of any guidance from the Supreme Court….”). But
what the Supreme Court has said makes it clear that
nominal damages claims remain live.
1. In general, damages claims prevent
mootness.
The Supreme Court has repeatedly ruled in many
different contexts that damages claims prevent
mootness. A congressman’s damages claim for back
pay “remains viable even though he has been seated”
and ensured a live case. Powell v. McCormack, 395
U.S. 486, 496 (1969). A prisoner’s “transfer did not
moot the damages claim” arising from his solitary
confinement, meaning there was no “sufficient ground
for affirming the
*****

40
No. 18-12676-AA
UNITED STATES COURT OF APPEALS FOR
THE ELEVENTH CIRCUIT
CHIKE UZUEGBUNAM AND JOSEPH
BRADFORD,
Plaintiffs-Appellants
v.
STANLEY C. PRECZEWSKI, LOIS C.
RICHARDSON, JIM B. FATZINGER, TOMAS
JIMINEZ, AILEEN C. DOWELL, GENE RUFFIN,
CATHERINE JANNICK DOWNEY, TERRANCE
SCHNEIDER, COREY HUGHES, REBECCA A.
LAWLER, AND SHENNA PERRY
Defendants-Appellees.
Appeal from the
United States District Court for the Northern
District of Georgia
Case No. 1:16-cv-04658-ELR
The Honorable Eleanor L. Ross
PETITION FOR INITIAL HEARING EN BANC

DAVID A. CORTMAN
TRAVIS C. BARHAM
ALLIANCE DEFENDING
FREEDOM

KRISTEN K. WAGGONER
TYSON C. LANGHOFER
ALLIANCE DEFENDING
FREEDOM

41
1000 Hurricane Shoals
Road N.E.,
Ste. D-1100
Lawrenceville, Georgia
30043
Telephone: (770) 339–
0774
Facsimile: (770) 339–
6744

440 1st Street, NW,
Ste. 600
Washington, D.C.
20001
Telephone: (202) 393–
8690
Facsimile: (202) 347–
3622

Attorneys for Appellants
*****
ARGUMENT
I. Flanigan’s was wrongly decided and should
be overruled.
In mooting Plaintiffs’ nominal damages claims,
the district court relied exclusively on Flanigan’s,
A.A.720-24—a decision that conflicts with longestablished precedent from the Supreme Court and
almost every circuit, lacks legal grounding, and
should be overturned.
A. Flanigan’s conflicts with Supreme Court
precedent.
1. Damages
mootness.

claims

generally

prevent

The Supreme Court has repeatedly ruled that
damages claims prevent mootness. A congressman’s
damages claim for back pay “remains viable even
though he has been seated.” Powell v. McCormack,
395 U.S. 486, 496 (1969). A prisoner’s “transfer did

42
not moot the damages claim” arising from his solitary
confinement. Boag v. MacDougdall, 454 U.S. 364,
364-65 (1982); Bd. of Pardons v. Allen, 482 U.S. 369,
370 n.1 (1987) (“The action is not moot …. [because]
the complaint sought damages….”). The Court does
not distinguish among sub-species of damages.
This holds true when a policy changes midlitigation. Davenport v. Wash. Educ. Ass’n, 551 U.S.
177, 182 n.1 (2007) (claims remained live “[b]ecause
petitioners sought money damages for respondent’s
alleged violation of the prior version of § 760”);
Parents Involved in Cmty. Schs. v. Seattle Sch. Dist.
No. 1, 551 U.S. 701, 720 (2007) (challenge to racebased school assignments continued because one
plaintiff “sought damages”); Buckhannon Bd. & Care
Home, Inc. v. W. Va. Dep’t of Health & Human Servs.,
532 U.S. 598, 608-09 (2001) (if plaintiff maintains a
damages claim, “defendant’s change in conduct will
not moot the case”); City of Richmond v. J.A. Croson
Co., 488 U.S. 469, 478 n.1 (1989) (challenge to an
expired ordinance remained a “live controversy” due
to damages claim); Ellis v. Brotherhood of Ry., Airline,
& S.S. Clerks, 466 U.S. 435, 442 (1984) (challenge to
expired program remained live—though injunctive
claims were mooted—where petitioners “sought
money damages”); Firefighters Local Union No. 1784
v. Stotts, 467 U.S. 561, 568-69, 571 (1984) (after
layoffs and demotions reversed, lawsuit not moot
because of damages claim).
Here, Plaintiffs’ “[c]laims for damages [based on
the College’s censorship] … automatically avoid
mootness” and “should be denied on the merits, not on
grounds of mootness.” 13C WRIGHT & MILLER, FED.

43
PRAC. & PROC. JURIS. § 3533.3 (3d ed. 2018).
Flanigan’s should be overturned.
2. Nominal damages claims vindicate the
priceless and should not be mooted as
worthless.
Under Flanigan’s, “nominal damages is not the
type of ‘practical effect’ that should, standing alone,
support Article III jurisdiction.” Flanigan’s, 868 F.3d
at 1270. This renders such claims worthless. When
combined with other relief, they serve no purpose.
Alone, they cannot prevent mootness. That result
ignores controlling law.
Those who passed the Civil Rights Act of 1871
knew federal courts had jurisdiction over solitary
nominal damages claims. An opponent observed: “The
deprivation may be of the slightest conceivable
character,
*****
2. Two circuits briefly adopted—and
quickly rejected—Flanigan’s’ position.
While Flanigan’s stands alone in mooting
unaccompanied nominal damages claims, it is not the
first to do so. The Fifth Circuit mooted a high school
graduate’s nominal damages claim against a
subsequently rescinded policy. Ward v. Santa Fe
Indep. Sch. Dist., 2002 WL 494510, *1 (5th Cir. Mar.
14, 2002). Weeks later, it reversed course, concluding
its nominal damages ruling “was in error” under
Carey. Ward v. Santa Fe Indep. Sch. Dist., 2002 WL
753502, *1 (5th Cir. Apr. 9, 2002).

44
The Ninth Circuit similarly dismissed a RLUIPA
appeal as moot after the church moved. Praise
Christian Ctr. v. City of Huntington Beach, 352 F.
App’x 196, 198 (9th Cir. 2009). On rehearing, it
reversed course, holding a “claim for nominal
damages creates the requisite personal interest
necessary to maintain a claim’s justiciability.” Id.
No other circuit has embraced Flanigan’s’ notion—
implemented here to excuse blatant censorship—that
unaccompanied nominal damages claims are moot.
This Court should resolve the circuit split and
overturn Flanigan’s.
C. Flanigan’s relies on two opinions that
have no legal force and two misplaced
analogies.
Flanigan’s primarily rests on two concurrences.
Flanigan’s, 868 F.3d at 1267 n.19 (citing Freedom
from Religion Found., Inc. v. New Kensington Arnold
Sch. Dist. (“FFRF”), 832 F.3d 469, 482-92 (3d Cir.
2016) (Smith, J.,
*****
Flanigan’s next likened nominal damages to
declaratory relief, concluding neither has a practical
effect sufficient for Article III jurisdiction. Flanigan’s,
868 F.3d 1268-70. But the Supreme Court has
rejected this very analogy, reversing decisions that
minimized nominal damages’ practical effects and
declaring these awards confer prevailing party status.
Farrar, 506 U.S. at 112. This “actual relief on the
merits … materially alters the legal relationship …
by modifying the defendant’s behavior.” Id. at 111-12.

45
This is true for “damages in any amount, whether
compensatory or nominal.” Id. at 113.
A decision that contradicts everything the
Supreme Court has said about nominal damages,
stands athwart almost every other circuit, and has
such tenuous legal grounding should be overturned.
Using it to immunize censorship of students on a
college campus from review highlights the need for
reversal.
CONCLUSION
Two students were unconstitutionally censored in
their “marketplace of ideas” where free speech should
be celebrated, not quarantined. But the district court
mooted their nominal damages claims, relying
exclusively on Flanigan’s—an en banc decision that
contradicts Supreme Court precedent, conflicts with
the rule in every other circuit that had addressed this
issue, lacks legal grounding, and should be
overturned. Initial en banc review is warranted.
*****

46
No. 18-12676-AA
UNITED STATES COURT OF APPEALS FOR
THE ELEVENTH CIRCUIT
CHIKE UZUEGBUNAM AND JOSEPH
BRADFORD,
Plaintiffs-Appellants
v.
STANLEY C. PRECZEWSKI, LOIS C.
RICHARDSON, JIM B. FATZINGER, TOMAS
JIMINEZ, AILEEN C. DOWELL, GENE RUFFIN,
CATHERINE JANNICK DOWNEY, TERRANCE
SCHNEIDER, COREY HUGHES, REBECCA A.
LAWLER, AND SHENNA PERRY
Defendants-Appellees.
Appeal from the
United States District Court for the Northern
District of Georgia
Case No. 1:16-cv-04658-ELR
The Honorable Eleanor L. Ross
PETITION FOR REHEARING EN BANC

DAVID A. CORTMAN
TRAVIS C. BARHAM
ALLIANCE DEFENDING
FREEDOM

KRISTEN K. WAGGONER
TYSON C. LANGHOFER
ALLIANCE DEFENDING
FREEDOM

47
1000 Hurricane Shoals
Road N.E.,
Ste. D-1100
Lawrenceville, Georgia
30043
Telephone: (770) 339–
0774
Facsimile: (770) 339–
6744

440 1st Street, NW,
Ste. 600
Washington, D.C.
20001
Telephone: (202) 393–
8690
Facsimile: (202) 347–
3622

Attorneys for Appellants
*****
Students often use nominal damages to ensure
their freedoms are “scrupulously observed,” Carey,
435 U.S. at 266, as officials play the clock, knowing
graduation will moot equitable claims, or bury illegal
actions with new policies. No other circuit has
embraced Flanigan’s’ notion—which here excused
blatant censorship—that solitary nominal damages
claims are moot.1 This Court should resolve the circuit
conflict by overturning Flanigan’s.

1

Two circuits briefly adopted—and quickly rejected—Flanigan’s
position. Ward v. Santa Fe Indep. Sch. Dist., 2002 WL 494510,
*1 (5th Cir. Mar. 14, 2002) (mooting nominal damages claim
against rescinded policy); Ward v. Santa Fe Indep. Sch. Dist.,
2002 WL 753502, *1 (5th Cir. Apr. 9, 2002) (concluding nominal
damages ruling “was in error” under Carey); Praise Christian
Ctr. v. City of Huntington Beach, 352 F. App’x 196, 198 (9th Cir.
2009) (reversing decision mooting nominal damages and holding
they “create[] the requisite personal interest necessary to
maintain a claim’s justiciability”).

48
2. No circuit moots nominal damages in asapplied cases.
The panel effectively extended Flanigan’s’
nominal-damages holding to as-applied claims. Op. at
17 n.3. If limited to claims against never-enforced
policies, it at least more closely resembles rulings in
two circuits. The Eighth mooted nominal damages
when plaintiffs challenged a later-amended ordinance
in a city they never visited, let alone endured
enforcement. Phelps-Roper v. City of Manchester, 697
F.3d 678, 684, 687 (8th Cir. 2012). The Fourth Circuit
ruled similarly, finding no deprivation when the
ordinance “was never enforced against” the plaintiff.
Chapin Furniture Outlet Inc. v. Town of Chapin, 252
F. App’x 566, 571-72 (4th Cir. 2007). But even in those
circuits, a “request for retrospective relief in the form
of nominal damages, based on an alleged
unconstitutional … restriction on speech, is not
moot.” Cent. Radio Co. v. City of Norfolk, 811 F.3d
625, 632 (4th Cir. 2016); Advantage Media, LLC v.
City of Eden Prairie, 456 F.3d 793, 803 (8th Cir. 2006)
(rejecting mootness as plaintiff “might be entitled to
nominal damages if it could show that it was
subjected to unconstitutional procedures”). Avoiding
this distinction, the panel exacerbated the conflict
Flanigan’s created.
A decision that contradicts everything the
Supreme Court has said about nominal damages,
stands athwart almost every circuit, and lacks legal
grounding should fall,2 especially when it immunizes
2

Flanigan’s rests on two concurrences, Flanigan’s, 868 F.3d at
1267 n.19, that are not law. Freedom from Religion Found., Inc.
v. New Kensington Arnold Sch. Dist., 832 F.3d 469, 486 (3d Cir.

49
censorship of students from review and blocks them
from amending their claims.
II. The panel wrongly applied Flanigan’s to asapplied claims.
Flanigan’s mooted nominal damages claims
involving a never-enforced ordinance. This nonenforcement heavily influenced its equitable ruling.
Flanigan’s, 868 F.3d at 1262 (“Appellants … have not
suggested that the City ever attempted to enforce the
sanctions attending the Ordinance.”); id. at 1263 (“[I]t
has expressly, repeatedly, and publicly disavowed any
intent to reenact a provision that it never enforced in
the first place.”).
It also impacted Flanigan’s’ nominal-damages
reasoning. This Court noted the “only injury of which
Appellants complained … was the existence of a
constitutionally impermissible prohibition.” Id. at
1264-65. They simply wanted the “removal of the
challenged Ordinance provision.” Id. at 1265. They
had no enforcement-related injuries because the
eventually-repealed provision was never enforced.
Here, Defendants twice enforced their policies to
stop Mr. Uzuegbunam from leafleting, A.A.170-72,
and speaking. A.A.173-82. This chilled both students,
A.A.183-92, who now seek redress for legal injuries

2016) (Smith, J., concurring dubitante) (“I concede that my
concerns about nominal damages and justiciability do not appear
to be shared by the majority of appellate courts….”). Judge
McConnell ruled solitary nominal damages claims are not moot,
Utah Animal Rights Coal. v. Salt Lake City Corp., 371 F.3d 1248,
1264, 1257-58 (10th Cir. 2004), before outlining his personal
views. Id. at 1262-71 (McConnell, J., concurring).

50
they suffered. Their as-applied claims differ from the
claims in Flanigan’s.
The panel said Plaintiffs sought a “new exception.”
Op. at 17 n.3. Not so. Flanigan’s addressed its facts;
this
case’s
facts
differ.
Flanigan’s,
being
distinguishable, should not control here.
The panel claimed this argument was waived. Id.
Not so. “Parties can … waive positions and issues on
appeal, but not individual arguments.” Sec’y, U.S.
Dep’t of Labor v. Preston, 873 F.3d 877, 883 n.5 (11th
Cir. 2017). On a preserved issue, parties “can make
any argument in support of” it and “are not limited to
the precise arguments they made below.” Yee v. City
of Escondido, 503 U.S. 519, 534 (1992). Before the
district court, Plaintiffs argued Flanigan’s should not
control. A.A.691 (“But that decision [Flanigan’s] does
not control here….”). While the arguments supporting
this position have been refined, the issue was
preserved.
Flanigan’s should be limited to minimize circuit
conflict. Two circuits have mooted nominal damages
where there was no enforcement, but not in as-applied
cases. See supra Argument I.B.3. By not
distinguishing between enforced and unenforced
policies, the panel exacerbated this Court’s conflict
with other circuits. It should be overruled.
III. The panel wrongly conflated two instances
where nominal damages remain live under
Flanigan’s.
The panel noted Flanigan’s does not moot all
nominal damages. First, “‘there are cases in which a
judgment in favor of a plaintiff requesting only

51
nominal damages would have a practical effect on the
parties’ rights or obligations.’” Second, “‘there are
situations in which nominal damages will be the only
appropriate remedy to be awarded to a victorious
plaintiff in a live case or controversy.” In each,
“jurisdiction is plainly proper.” Op. at 14 (quoting
Flanigan’s, 868 F.3d at 1263-64). The first is the
“practical effects” exception, exemplified by trespass
and libel, Flanigan’s, 868 F.3d at 1263 n.12; the
second, the “consolation prize” where compensatory
damages are sought but not proven. Id. at 1264 n.13,
1270 n.23.
Plaintiffs satisfied the “practical effects” test.
Appellants’ Br. at 23-24. Just as trespass cases
determine “a disputed boundary,” Flanigan’s, 868
F.3d at 1263 n.12, Plaintiffs’ claims would determine
if Defendants crossed the constitutional boundary in
these enforcement actions. The panel wrongly dubbed
this an advisory opinion. Op. at 16. Here, no court
need opine on “what the law would be” using
hypothetical facts.
*****

